Report No. D-2008-123         August 26, 2008




  Internal Controls Over Navy General Fund,
 Cash and Other Monetary Assets Held Outside
       of the Continental United States
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations

BHD                    Bahraini Dinar
COMA                   Cash and Other Monetary Assets
DCAS                   Defense Cash Accountability System
DD                     Defense Department
DO                     Disbursing Officer
DoD FMR                DoD Financial Management Regulation
DoD IG                 DoD Office of Inspector General
DoN                    Department of the Navy
DFAS                   Defense Finance and Accounting Service
DSSN                   Disbursing Station Symbol Number
LDA                    Limited Depository Account
OCONUS                 Outside of the Continental United States
NAMRU-3                Navy Medical Research Unit 3
NCIS                   Naval Criminal Investigative Service
NSA                    Naval Support Activity
PSA                    Personnel Support Activity
PSD                    Personnel Support Detachment
SOA                    Statement of Accountability
SF                     Standard Form
U.S.C.                 United States Code
                                        INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704




                                                                                       August 26, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR DEFENSE FINANCE AND ACCOUNTING SERVICE
               NAVY INSPECTOR GENERAL


SUBJECT: Report on Internal Controls Over Navy General Fund, Cash and Other Monetary Assets
         Held Outside of the Continental United States (Report No. D-2008-123)

We are providing this report for review and comment. We considered comments from the Office of
the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer and the Office of the Assistant
Secretary ofthe Navy (Financial Management and Comptroller) Financial Management Office when
preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments from
the Acting Deputy Chief Financial Officer, Office of the Under Secretary of Defense were partially
responsive. We request additional comments on Recommendation B.2 and D.I by
September 26,2008. Comments from the Director, Office ofthe Assistant Secretary of the Navy
(Financial Management and Comptroller) Financial Management Office, were responsive.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible,
send client comments in electronic format (Adobe Acrobat file only) to AUDDFS@dodig.mil. Copies
of the client comments must have the actual signature of the authorizing official for your organization.
We cannot accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Edward A. Blair at
(216) 706-0074, extension 226, or Mr. Eric T. Thacker at (216) 706-0074, extension 234. The team
members are listed inside the back cover.



                                        f~~,rn~
                                       Patricia A. Marsh, CPA
                                     Assistant Inspector General
                                  Defense Financial Auditing Service
                    Report No. D-2008-123 (Project No. D2007-D000FN-0142.000)
                                         August 26, 2008

               Results in Brief: Internal Controls Over Navy
               General Fund, Cash and Other Monetary
               Assets Held Outside of the Continental
               United States

What We Did                                             What We Recommend
We evaluated internal controls over Department             •   Improve procedures for appointment
of the Navy (DoN) General Fund Cash and                        letters, cash verifications, and Limited
Other Monetary Assets (COMA) to determine                      Depository Account reconciliations.
whether they were effectively designed and                 •   Incorporate requirements for personnel
operating to safeguard, record, account for, and               protection, security equipment testing,
report COMA held outside of the continental                    and periodic security reviews into
United States.                                                 documented security programs.
                                                           •   Designate an independent examining
What We Found                                                  organization to perform unannounced
DoN lacked effective internal controls over                    disbursing examinations of African
COMA held outside of the continental United                    operations.
States in several areas. Specific issues include           •   Determine whether other DoD
the following:                                                 disbursing operations are duplicating
    • Standard operating procedures                            services available by banking facilities.
        inappropriately instructed accountants to          •   Eliminate banking services offered by
        classify the total amount of disbursing                Personnel Support Detachment-Naples
        officer accountability as COMA for                     disbursing personnel.
        financial statement reporting purposes.
    • DoN did not consistently apply internal           Client Comments and Our
        controls over disbursing appointments,          Responses
        operational COMA security, physical
        COMA security, Limited Depository               The Acting Deputy Chief Financial Officer,
        Account reconciliations, and                    Office of the Under Secretary of Defense
        unannounced cash verifications.                 partially concurred with our recommendations.
    • The Naval Support Activity-Bahrain                We considered corrective actions to be fully
        paid more than $93,000 in excess                responsive to the intent of one recommendation,
        exchange costs because the disbursing           but partially responsive to another. We request
        officer did not solicit financial               additional comments from the Office of the
        institutions for the most beneficial            Under Secretary of Defense by
        exchange rate.                                  September 26, 2008. The Director, Office of
                                                        Assistant Secretary of the Navy (Financial
    • The Personnel Support Detachment-
                                                        Management and Comptroller) Financial
        Naples provided check-cashing and
                                                        Management Office, concurred with our
        Euro-conversion services that duplicated
                                                        recommendations. Please see the
        services offered by on-base banks.
                                                        Recommendations Table on the following page.


                                                    i
                   Report No. D-2008-123 (Project No. D2007-D000FN-0142.000)
                                        August 26, 2008




Recommendations Table
                                                                                     No Additional
                                                             Recommendations          Comments
Client                                                      Requiring Comment          Required
Under Secretary of Defense (Comptroller)/Chief Financial   B.2., D.1.
Officer

Assistant Secretary of the Navy (Financial Management                           B.1.a, B.1.b, B.1.c.
and Comptroller)

Commander, Naval Support Activity–Bahrain                                       C.

Commander, Personnel Support Detachment–Naples                                  D.2.



Please provide comments by September 26, 2008.




                                                  ii
Table of Contents
Results in Brief                                                    i

Introduction                                                        1

       Objectives                                                   1
       Background                                                   1

Finding A. Reporting of Cash and Other Monetary Assets              3

       Recommendation                                               5
       Client Comments on Finding and Our Response                  6

Finding B. Internal Controls Over Cash and Other Monetary Assets    7

       Recommendations, Client Comments, and Our Response          13

Finding C. Currency Exchange Rate                                  17

       Recommendation, Client Comments, and Our Response           18

Finding D. Duplication of Banking Services                         21

       Recommendations, Client Comments, and Our Response          23

Appendices

       A. Scope and Methodology                                    25
              Review of Internal Controls                          26
              Prior Coverage                                       27
       B. Potential Monetary Benefits                              29

Client Comments

       Under Secretary of Defense (Comptroller)                    31
       Assistant Secretary of the Navy (Financial Management
              and Comptroller)                                     33
       Defense Finance and Accounting Service                      37
Introduction
Objectives
This audit is one of a series of reports addressing internal controls over DoD Cash and
Other Monetary Assets (COMA). Our overall audit objective was to evaluate whether
internal controls for Department of the Navy General Fund, Cash and Other Monetary
Assets held outside of the continental United States (OCONUS) were effectively
designed and operating to safeguard, record, account for, and report COMA. See
Appendix A for a discussion of the scope and methodology.

Background
In 2006, the DoD Office of Inspector General (DoD IG) performed the audit, “Controls
Over Army Cash and Other Monetary Assets” for the U.S. Army. This audit led the
DoD IG to conclude that similar audits of Navy, Air Force, and Marine Corps COMA
would be advantageous. This report discusses the adequacy of internal controls over
Department of the Navy (DoN) COMA held at disbursing offices located OCONUS.

The Statement of Federal Financial Accounting Concepts No. 2, section 84, paragraph 3,
“Balance Sheet,” defines COMA as coins, paper currency and readily negotiable
instruments (such as money orders, checks, and bank drafts on hand or in transit for
deposit), amounts on demand deposit with banks or other financial institutions, cash held
in imprest funds, and foreign currencies.

DoD 7000.14-R, “DoD Financial Management Regulation,” (DoD FMR) provides
further guidance for controlling, recording, and reporting COMA. DoD FMR, volume
6B, chapter 4, also defines “cash” as coins, paper currency, and readily negotiable
instruments (such as money orders, checks, and bank drafts on hand or in transit for
deposit), and amounts on demand deposit with banks or other financial institutions,
including foreign currencies. “Other monetary assets” include gold, special drawing
rights, and U.S. Reserves in the International Monetary Fund.

Each DoD disbursing office has a unique disbursing station symbol number (DSSN).
Disbursing offices process payment and collection transactions. Disbursing officers
(DOs) supervise all personnel holding cash, and are accountable for maintaining
appropriate accounting and internal controls over the assets. This responsibility includes
ensuring the legality, propriety, and correctness of all disbursements and collections of
public funds. The function of regularly receiving and maintaining custody of public funds
is generally performed by DOs and their appointed agents, such as deputy DOs,
disbursing agents, and cashiers.

DOs are accountable to the U.S. Treasury for the COMA in their possession. The
Statement of Accountability (SOA), Standard Form (SF) 1219, is the DO’s official
monthly record of COMA accountability. The DO’s daily accountability is maintained on
the Daily SOA, SF 2657. Disbursement and collection transactions are reported on both
the monthly and Daily SOAs. COMA in the possession of DOs should be reconciled
daily, using the Daily SOA as the permanent written record. Documents representing
cash for which the DO remains accountable, such as receipts for advances to disbursing
agents, should be kept in the DO’s safe or vault and accounted for daily on the forms
described above.



                                            1
The DoD FMR states that the Daily Agent Accountability Summary, DD Form 2665, is
the daily accountability document for agents. Preparation of the DD Form 2665 includes
a physical count of all cash and negotiable instruments in the possession of the agents.
Agents should use the Statement of Agent Officer’s Account, DD Form 1081, as a
summary of cash transactions and receipt for cash or to close agent accounts. Collection
and disbursement vouchers and any remaining cash must be turned in to the DO, along
with the DD Form 1081, which is prepared to account for cash and vouchers returned to
the DO. The DO or deputy DO should balance all agents’ COMA daily, using the Daily
Agent Accountability Summary.

DoN reported approximately $176 million in COMA on its FY 2006 financial statements.
Of this amount, $74.4 million (42 percent) was located at DoN disbursing locations
outside of the continental United States (OCONUS), in the Europe, Pacific, and
Southwest Asia theaters.




                                           2
Finding A. Reporting of Cash and Other
Monetary Assets
The Department of the Navy (DoN) Consolidated General Fund Balance Sheet incorrectly
included items that were not cash or other monetary assets on the Cash and Other Monetary
Assets (COMA) line. Specifically, the balance sheet inappropriately classified items such as
losses of funds and receivables as COMA. This occurred because the DFAS standard operating
procedures for reporting COMA instruct accountants to record the total amount of disbursing
officer accountability as COMA for financial statement reporting purposes. These procedures
were inaccurate because the Department of Defense Financial Management Regulation had not
defined which items should be classified as COMA. As of September 30, 2007, DoN had
overstated the Consolidated General Fund Balance Sheet by more than $2.4 million.


Journal Voucher Process
DFAS uses a journal voucher to post to the COMA line at the close of each fiscal quarter. DOs
support these journal vouchers with statements of accountability. The “Total Disbursing Officer
Accountability” line of the Statement of Accountability includes such items as “Cash on Deposit
in Designated Depository,” “Losses of Funds,” and “Receivables-Dishonored Checks.”

Losses of funds result from acts of nature (floods, earthquakes), bank failure, and wrongful
conduct such as theft, robbery and burglary. Accountability for dishonored checks falls within
one of three categories: checks accepted from base organizations that routinely collect funds
(such as commissary and housing); checks accepted in satisfaction of an obligation due the
United States (such as military pay and travel pay); or checks received as accommodation-
exchange transactions. Other accountability items include unresolved deficiencies in the account
of a former DO, which cannot be classified as check-issue overdrafts or losses of funds.

Definition of COMA
The Federal Accounting Standards Advisory Board (FASAB) Statement of Federal Financial
Accounting Standard No. 1, “Accounting for Selected Assets and Liabilities,” March 30, 1993,
defines cash as: (a) coins, paper currency and readily negotiable instruments, such as money
orders, checks, and bank drafts on hand or in transit for deposit; (b) amounts on demand deposit
with banks or other financial institutions; and (c) foreign currencies, which, for accounting
purposes, should be translated into U.S. dollars at the exchange rate on the financial statement
date.

Cash is classified as either entity cash or nonentity cash, and these are reported separately on
Federal financial statements. Entity cash is the amount of cash that the reporting entity holds and
is authorized by law to spend. Nonentity cash is collected and held by the reporting entity on
behalf of another Federal entity or the U.S. Government, and these funds are not available for
use by the reporting entity. In some circumstances, the entity deposits cash in its accounts in a
fiduciary capacity for the Department of the Treasury or other entities. Nonentity cash should be
reported separately from entity cash.


                                                3
Restrictions are usually imposed on cash deposits by law, regulation, or agreement. Nonentity
cash is always restricted cash. Entity cash may be restricted for specific purposes. Such cash
may be in escrow or other special accounts. Financial reports should disclose the reasons for and
nature of restrictions.

Office of Management and Budget Circular A136, “Financial Reporting Requirements,” June
2007, defines other monetary assets as gold, special drawing rights, and U.S. Reserves in the
International Monetary Fund. The Department of the Treasury uses both cash and other
monetary assets definitions to identify COMA.

Posting Cash on the Balance Sheet
The DoD FMR, volume 6b, chapter 4, “Balance Sheet,” January 2006, states that DO cash
reported on the SF 1219, “Statement of Accountability,” is also reported on the COMA line of an
entity’s balance sheet. DoD FMR volume 5, chapter 6 states that physical losses (whether major
or minor) are recorded on DD Form 2657 by increasing line 7.3 or 9.3, “Loss of Funds,” and
decreasing the cash on hand. DFAS Cleveland DoN General Fund Audited Financial Statements
Branch Operating Manual (December 2005, as modified January 31, 2006) prescribes the
procedures for posting DoN DO accountability from the DoN monthly consolidated SF 1219 to
the financial reporting system, Defense Departmental Reporting System. Specifically, the
manual instructed accountants to post all monthly consolidated SF 1219 account balances to the
COMA line item.

DFAS Cleveland used internal guidance for posting DO cash journal vouchers to the Defense
Departmental Reporting System. Specifically, DFAS Cleveland’s DoN General Fund Audited
Financial Statement Branch Operating Manual instructed accountants to include total DO
accountability when posting to the COMA account balance. As such, COMA account balances
included non-COMA items such as advances to contractors, deferred vouchers receivable, check
overdraft receivables, dishonored checks receivable, and losses of funds. These items from the
monthly consolidated SF 1219 do not meet the DoD FMR’s definition of COMA. By posting
non-COMA items for reporting COMA on the DoN’s General Fund balance sheet, DFAS
Cleveland overstated the value of this balance sheet line. DFAS Cleveland guidance was
incorrect because the DoD FMR did not define which items should be classified as COMA.




                                               4
The following table breaks out the monthly consolidated SF 1219 accounts used to report
COMA. As of September 30, 2007, DFAS Cleveland overstated COMA by more than
$2.4 million dollars.

                               Table 1. COMA Calculation
       Monthly Consolidated SF 1219 as of
              September 30, 2007                                                            Auditor Calculations
                                                 FY 2007 Cash              Actual COMA by               Overstatement of Cash on the
Line             Line Title                        Reported                   Definition                   Financial Statements
6.1     Designated Depository                     $31,303,367.03               $31,303,367.03                  $0.00         0.00%
6.2     Cash on Hand                                 44,913,704.06                 44,913,704.06                   0.00            0.00%
6.3     Undeposited Collections                         694,865.57                    694,865.57                   0.00            0.00%
6.4     Custody or Contingency Cash                   3,269,257.49                  3,269,257.49                   0.00            0.00%
        Cash in Custody of Govt.
6.5     Cashiers                                     57,561,471.18                 57,561,471.18                 0.00              0.00%
6.6     Advances to Contractors                         228,679.04                          0.00           228,679.04      *        .16%
6.7     Cash in Transit                               1,343,075.00                  1,343,075.00                   0.00            0.00%
6.8  Payroll Cash                                     1,465,353.94                  1,465,353.94                  0.00              0.00%
6.9  Other Cash Items                                  (11,988.43)                          0.00           (11,988.43)     *       (-.01%)
     Deferred Charges-Vouchered
7.1  Items                                              981,654.33                            0.00         981,654.33      *        .69%
     Receivables-Checks
7.2  Overdrafts                                           4,727.95                            0.00           4,727.95      *       0.00%
7.3  Losses of Funds                                    128,056.98                            0.00         128,056.98      *        .09%
     Receivables-Dishonored
7.4  Checks                                               50,503.95                           0.00           50,503.95     *        .04%
     Receivables-Check
9.2  Overdrafts                                          1,974.38                          0.00              1,974.38              0.00%
9.3  Losses of Funds                                 1,002,504.30                          0.00          1,002,504.30      *        .70%
9.4  Other Accountability                               34,106.30                          0.00             34,106.30               .02%
TOTAL:                                            $142,971,313.07               $140,551,094.27         $2,420,218.80      *       1.69%

* Overstatement of Reported Cash and Other Monetary Assets on the DoN Balance Sheet was determined by subtracting non-COMA items
(Lines 6.6, 6.9, 7.1, 7.3, 7.4, 9.2, 9.3 and 9.4) from the amount reported as COMA.


Recommendation
This report is one in a series leading up to an agency-level review of DoD Cash and Other
Monetary Assets reporting. Assets that are incorrectly classified as Cash and Other Monetary
Assets affect not only the reporting Component's balance sheet, but also the DoD balance sheet.
We will make recommendations on this finding in the report, "Internal Controls Over DoD Cash
and Other Monetary Assets.”




                                                                  5
Client Comments on the Finding and Our Response
Although not required to comment, the Director, Defense Finance and Accounting Service
Cleveland provided the following comments on the finding. For the full text of the Defense
Finance and Accounting Comments, see the Client Comments section of the report.

Defense Finance and Accounting Service Comments: The Director, Defense Finance and
Accounting Cleveland did not fully agree with the finding, stating that the Department of the
Navy balance sheet, taken as a whole, was not overstated by $2.4 million at fiscal-year end 2007.
The Director stated that the $2.4 million was simply a misclassification and that guidance issued
in FY 2008 dictates how lines from the SF 1219 should be recorded on the balance sheet.

Audit Response: We acknowledge the Director’s comments, and agree that taken as a whole,
the Department of the Navy balance sheet was not overstated by $2.4 million at fiscal-year end
2007. Even so, the Department of the Navy did overstate the cash and other monetary assets
line.




                                                6
Finding B. Internal Controls Over Cash and
Other Monetary Assets
The Department of the Navy did not consistently apply internal controls over COMA outside of
the continental U.S. Specifically, management lacked effective internal controls in the following
areas:

           •   proper appointment of disbursing officials,

           •   cash verifications,

           •   physical security over COMA, and

           •   unannounced examinations.

This occurred because DoD and DoN did not effectively implement established policy and
guidance. As a result, insufficient internal controls increased DoN vulnerability to fraud and risk
for potential misstatement of COMA on the DoN General Fund balance sheet.

Criteria for Internal Controls Over COMA
Title 10, Section 2773 of the United States Code (10 U.S.C.) sets forth requirements for the
accountability and responsibility for disbursing officials, including the designation, powers, and
accountability of deputy disbursing officials. Under section 2773a 10 U.S.C, “Any such
designation shall be in writing.” Any designated employee or member may be referred to as a
“departmental accountable official.” Additionally, the Secretary of Defense may subject any
civilian employee of the Department of Defense or member of the armed forces under the
Secretary’s jurisdiction as an employee or member who, in addition to any other potential
accountability, may be held accountable through personal monetary liability for an illegal,
improper, or incorrect payment made by the Department of Defense, as described in
section 2773a(c) 10 U.S.C.

Volume 5 of the DoD FMR provides for the use, procedures, and security for COMA throughout
the DoD. Chapter 2, “Disbursing Offices, Officers, and Agents,” provides guidance for the
establishment of a disbursing office, the appointment of disbursing officials, and general
disbursing operation guidance. Chapter 3, “Keeping and Safeguarding Public Funds,”
establishes operating criteria for daily disbursing cash operations, including: cash review
requirements; safeguarding funds and related documents; and advancing funds to disbursing
agents. DoD FMR, volume 5, appendix A, “Cash Verification,” provides cash verification
procedures to be used by members of cash-verification teams. Appendix D, “Navy Disbursing
Operations,” provides guidance for Navy disbursing officials for collections, disbursements,
afloat foreign currency transactions, and unannounced disbursing examinations. DoN is
responsible for implementing these provisions consistently throughout the Navy and Marine
Corps.



                                                 7
Preparation of Appointment Letters
Appointment letters for disbursing personnel did not contain all the information required by the
DoD FMR. A deficient appointment letter could allow an individual to avoid pecuniary liability
under 10 U.S.C. Section 2773a. Of the eight locations examined during this audit, the following
five did not have appointment letters that complied with DoD FMR requirements:

           •   DSSN 5792, Personnel Support Detachment-Rota, Spain;

           •   DSSN 6879, Personnel Support Activity, Far East-Yokosuka, Japan (PSA-Far
               East);

           •   DSSN 7339, Navy Medical Research Unit 3-Cairo, Egypt (NAMRU-3);

           •   DSSN 7668, Personnel Support Detachment (PSD)-Naples, Italy (PSD-Naples);
               and

           •   DSSN 8069, Naval Support Activity (NSA)-Manama, Bahrain (NSA-Bahrain).

Specifically, the appointment letters did not include appointee duties or a statement specifying
individual pecuniary liability. Three letters did not include statements confirming the counseling
of appointees with regard to pecuniary liability or that they were given written operating
instructions.

DoD FMR volume 5, chapter 2, “Disbursing Officers, Officers, and Agents,” dated October
2006, requires that the authorities who approve the establishment of DO, deputy DO, and cashier
positions should issue the required appointment letter to these individuals. The DoD FMR
further requires that appointment letters include the statement: “I acknowledge that I am strictly
liable to the United States for all public funds under my control,” in addition to a statement
confirming the counseling of appointees with regard to pecuniary liability and that they have
been given written operating instructions. Appointees must acknowledge acceptance of the
appointment with an original signature on all copies of the letter of appointment. Title 10 U.S.C.
section 2773a states that a designated accountable official may be held accountable through
personal monetary liability for an illegal, improper, or incorrect payment.

The disbursing personnel appointment letters for the five DSSNs mentioned above were
defective because they lacked each individual’s specific acknowledgement and acceptance of his
or her pecuniary liability. Title 10 U.S.C. section 2773a specifically requires that the designation
of officials to be in writing. Therefore, supervisors of individuals who have appointment letters
that do not meet the requirements of DoD FMR volume 5, chapter 2 should have those
appointment letters revised and reissued or relieve those individuals from performing disbursing
duties.

Cash Verifications
At all nine locations visited, DoN personnel did not perform cash verifications in accordance
with the DoD FMR. Volume 5, chapter 3, section 030301 and appendix A require cash
verifications to be performed quarterly and include, among other elements:


                                                 8
               •   physical cash counts;

               •   blank check stock verification;

               •   cash-holding authority documentation;

               •   limited depository account verification; and

               •   reporting requirements.

Cash verification teams did not perform physical cash counts at two DoN disbursing locations
because command management did not appoint any individuals to verification teams. DoD FMR
volume 5, appendix A, section A.1 requires that, at least once each quarter, the cash verification
team conduct a surprise verification of the cash and other assets under the cash accountability of
the DO.

Independent cash verification teams did not perform a physical cash count of $47,500 at the
Naval Criminal Investigative Service (NCIS) Far East Field Office in Yokosuka, Japan, which
serves as a collection agent for Personnel Support Activity-Far East. No instructions or
procedures existed to grant an independent cash verification team access to PSA-Far East’s cash.
Instead, NCIS personnel internally prepared a cash verification report and submitted it to the DO
on a quarterly basis. As a result, the DO at PSA-Far East had no independent verification of
physical controls over the funds.

NAMRU-3 Command neither appointed an independent cash verification team nor completed
cash verifications. During our visit, we found that NAMRU-3 misclassified accounts receivable
items as cash on hand. Independent cash verifications would have shown that the DO
consistently reported more cash on hand than was actually available. Although accounts
receivable values change daily, the transactions represented $419,783.84 of the $1,065,007.14
cash on hand (approximately 39 percent) reported on September 18, 2007. As a result,
NAMRU-3 Command lacked the ability to monitor the actual amount of cash on hand available
to support the NAMRU-3 disbursing mission.

Cash verification teams did not verify blank check stock at two disbursing locations examined,
as required by DoD FMR volume 5, appendix A. Both locations, Naval Support Activity -
Bahrain and NAMRU-3, maintain blank limited depository account (LDA) checks and U.S.
Treasury checks. 1 However, commanders did not appoint cash verification teams at these two
locations, and blank check stock was not verified. We performed verifications of the blank
check stock at both locations during our audit fieldwork and found no discrepancies. However,
failure to periodically review blank check stock increases the potential for fraud to occur,
because individual checks could be improperly withdrawn from the check stock and negotiated
for significant amounts of money without justification.




1
    LDAs are checking accounts maintained by DOs to conduct business in a foreign currency.


                                                         9
Disbursing officials at two DoN disbursing locations exceeded their cash-holding authority.
DoD FMR, volume 5, chapter 3, “Request for Approval,” section 030104, dated October 2006,
requires DOs to request authorization to hold cash, which is done at their personal risk. The
approving authority is responsible for ensuring that the cash-holding request complies with the
DoD FMR and that controls exist to ensure that cash requirements are reviewed.

The DO and deputy DO at NSA-Bahrain exceeded their cash-holding authority by as much as
$10.5 million. On October 30, 2006 the DO had $5 million transferred into her LDA. This
caused her to exceed her $3 million in LDA cash-holding authority by approximately $2 million.
Between September 2006 and August 2007, the DO also had deposits transferred into the deputy
DO’s LDA, where 9 of 22 deposits caused him to exceed his $1.5 million in LDA cash-holding
authority by as much as $10.5 million.

Cash maintained at PSD-Naples caused a deputy DO to exceed his LDA cash-holding authority
limitation by as much as $1.6 million. During May 2007, we examined 11 business days’
transactions and found that the deputy DO exceeded his cash-holding authorization by amounts
ranging from $388,000 to $1.6 million, and a disbursing agent had exceeded his authorization by
as much as $133,000.

Approving authorities did not perform periodic reviews of cash-holding requirements and did not
provide oversight of the disbursing function, as required by the DoD FMR. As a result, DoN
disbursing officials exceeded their authorized cash-holding authority, increasing their potential
vulnerability to fraud.

Cash verification teams did not verify LDAs at NSA-Bahrain and NAMRU-3 on a quarterly
basis, as required by the DoD FMR, volume 5, appendix A. Commanders at these locations had
not established cash verification teams or appointed members to perform the LDA verifications.
As a result, the potential exists for improper or fraudulent transactions to be processed through
the account without being reviewed.

In addition, NAMRU-3 personnel did not reconcile the LDA on a monthly basis, as required by
DoD FMR, volume 5, chapter 14. LDA reconciliations are performed by completing the
Statement of Designated Depository Account (SF 1149). The DO at NAMRU-3 stated that the
monthly reconciliations of the LDA account were not performed because of delays in receiving
the LDA bank statements and because he lacked the staff necessary to perform the
reconciliations. As a result, the DO could not attest to the safeguarding and accounting of funds.
Also, without monthly reconciliations, the DO would not be able to determine whether improper
or fraudulent transactions were processed through the LDA.

The following six disbursing locations’ cash verification reports were missing information
required by the DoD FMR:

           •   DSSN 5792, Personnel Support Detachment-Rota, Spain;

           •   DSSN 5895, Personnel Support Activity-Chinhae, South Korea;




                                                10
           •   DSSN 6160, 3rd Force Services Support Group Disbursing-Okinawa, Japan;

           •   DSSN 7475, Personnel Support Detachment-Sigonella, Italy;

           •   DSSN 7668, Personnel Support Detachment-Naples, Italy; and

           •   DSSN 8814, Personnel Support Detachment-Manama, Bahrain

The DoD FMR volume 5, appendix A, section A.2.g, “Report Verification,” dated October 2003,
requires that cash verification reports include:

           •   the date of the preceding cash verification report;

           •   a statement as to whether the DO is in compliance with DoD FMR requirements;

           •   details regarding cash held under the DO’s cash accountability that has not been
               verified by actual count (include the identity of each agent, amount of cash held,
               and method agents used to reported their cash–indicate whether the DO’s verified
               cash accountability agreed with the agent’s reports);

           •   a detailed list of undeposited checks; and

           •   a statement as to whether the DO has resolved debit vouchers, check-issue
               discrepancies, check-issue reporting gaps, duplicate payments, reissue of limited
               payability check cancellations, and forgery recoveries in a timely manner.

In each instance, cash verification teams did not include all or at least one of these report
elements in the cash verification reports because they did not closely follow the DoD FMR
guidance. As a result, the cash verification team did not provide complete results to command
and disbursing officials, potentially impairing management’s ability to monitor the security of
COMA.

Physical Security Over Cash and Other Monetary Assets
The commanders, DOs, and accountable disbursing personnel at four locations did not meet the
DoD FMR requirement for security of COMA. DoD FMR volume 5, chapter 3, section 030302
lists several responsibilities required by the commander and DO to ensure the safety of the
accountable assets. However, the commanders, DOs, and agents did not fulfill at least one of the
following responsibilities:

           •   develop a COMA security program;

           •   conduct semiannual inspections of office security measures; and

           •   maintain strict security over the disbursing area.




                                                11
DoN disbursing officials at NAMRU-3, PSD-Naples, NSA-Bahrain, and Customer Support
Desk-Chinhae, did not properly follow DoD FMR physical security requirements. Disbursing
officials at these locations either did not maintain security programs or did not perform
semiannual inspections. The security program should provide personnel protection, periodic
reviews of security, security equipment testing, and security measures that are capable of
protecting the maximum amount of public funds authorized by the DOs’ cash-holding authority.
Also, the DoD FMR requires the DO to personally review the office security measures at least
semiannually and maintain a record of such inspections.

We observed incidents at three disbursing sites that compromised the physical security of
COMA and the disbursing staff, including:

           •   NAMRU-3 disbursing staff allowed an individual who appeared to be an
               acquaintance to enter the secured area, despite the fact that the disbursing area has
               an “Authorized Personnel Only” sign on the door.

           •   Security forces at both PSD-Bahrain and its subordinate disbursing office at
               Camp Lemonier, Djibouti, Africa failed to respond to surprise alarm tests. NSA-
               Bahrain is the host organization and is required to provide security protection for
               PSD-Bahrain’s disbursing office. There is no specific security force responsible
               for providing security for the disbursing operation at Camp Lemonier. We
               discussed these situations with security representatives at both locations and
               concluded that the individuals or units assigned the responsibility for providing
               physical security were inattentive to their duties.

Physical security over COMA at these locations does not appear to be adequate. Although
disbursing officials implemented steps to secure COMA, security procedures were bypassed at
NAMRU-3, and security forces providing security were not effective at PSD-Bahrain and Camp
Lemonier. As a result, the potential exists for security to be breached, exposing disbursing
officials to a potential loss of funds for which disbursing officials at NAMRU-3, PSD-Bahrain,
and Camp Lemonier are pecuniary liable.

Unannounced Disbursing Examinations
DoN did not perform unannounced disbursing examinations for two disbursing operations on the
African continent. These examinations did not occur because the Assistant Secretary of the
Navy (Financial Management and Comptroller), who was responsible for administering the Navy
Administrative Examination Program, did not include the Africa locations. As a result, DoN
management does not have assurance that disbursing operations in Africa are in compliance with
established laws and regulations and that COMA is properly safeguarded there.




                                                12
The DoD FMR, volume 5, appendix D, section F, “Unannounced Disbursing Examinations,”
governs the performance of annual, on-site, unannounced disbursing examinations at all Navy
disbursing offices every 18 months. Specifically, the disbursing examinations are designed to:

           •   uncover errors as quickly as possible;

           •   initiate corrective action with the least possible delay;

           •   offer recommendations for strengthened controls to prevent reoccurrence;

           •   determine the accuracy of financial returns and the current status of DO
               accountability; and

           •   offer guidance and assistance to DOs in the proper interpretation and application
               of governing regulations.

The DoD FMR, volume 5, appendix D, section F also stipulates that the Assistant Secretary of
the Navy (Financial Management and Comptroller) is responsible for the Navy Administrative
Examination Program, including the development and implementation of Navy-wide technical
procedural instructions for the guidance and compliance of on-site examination staff. The
Assistant Secretary of the Navy (Financial Management and Comptroller) also determines which
Military Pay and Personnel Field Examination Group will be responsible for the examinations,
along with its respective Personnel Support Activity Network/Geographic Region of
Responsibility. However, the 2002 revision of appendix D did not include DoN disbursing
locations in Africa. As a result, the Military Pay and Personnel Field Examination Group did not
perform unannounced disbursing examinations at NAMRU-3 in Cairo, Egypt and at the
Personnel Support Detachment at Camp Lemonier in Djibouti, Africa. Therefore, DoN
management has only limited assurance that disbursing operations were performed in
compliance with established laws and regulations and that COMA were properly safeguarded.

Recommendations, Client Comments, and Our Response
B.1. We recommend that the Assistant Secretary of the Navy (Financial Management and
Comptroller) improve disbursing operations by strengthening existing procedures for the
issuance of appointment letters, security over cash and other monetary assets, and
unannounced examinations. Specifically, the Assistant Secretary of the Navy (Financial
Management and Comptroller) should:

       a. Improve procedures for the preparation and issuance of appointment letters to
       ensure that appointment letters include the appointee’s duties and a statement
       confirming the counseling of appointees with regard to pecuniary liability and that
       appointees were given written operating instructions.

       b. Strengthen procedures to ensure that cash verifications include: the performance
       of physical cash counts; the verification of blank check stock; the review of cash-
       holding authorizations; and the reconciliation and verification of limited depository


                                                 13
       accounts at all Department of the Navy disbursing offices. In addition, we
       recommend that procedures be strengthened to ensure that cash verification reports
       contain all required elements stipulated by the DoD Financial Management
       Regulation volume 5, appendix A.

       c. Improve physical security procedures at Department of the Navy disbursing
       offices. Specifically, we recommend the development and documentation of security
       programs that incorporate requirements for personnel protection, periodic reviews
       of security, testing security equipment, and for security measures that are capable of
       protecting the maximum amount of public funds authorized by the disbursing
       officials’ cash-holding authority.

Client Comments. The Director, Office of Assistant Secretary of the Navy (Financial
Management and Comptroller) Financial Management Office, concurred and stated that the
parties responsible for the Department of the Navy disbursing functions will align these
operations with Department of Defense disbursing policy. The Director estimated that such
policy implementation will be completed October 1, 2008.

Audit Response. Comments from the Director, Financial Management Office, are responsive
and no additional comments are required.

B.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer update the DoD Financial Management Regulation volume 5, appendix D to
designate an examining organization to perform unannounced disbursing examinations of
all current and future operations in Africa, including those of Camp Lemonier in Djibouti,
Africa and the Naval Medical Research Unit Number 3 in Cairo, Egypt.

Under Secretary of Defense (Comptroller) Comments. The Acting Deputy Chief Financial
Officer, Office of the Under Secretary of Defense, partially concurred, stating that DoD
Financial Management Regulation volume 5, appendix D, is a Navy-specific standard operating
procedure which reiterates guidance located in other chapters of volume 5. Chapter 3, section
0302, “Cash Review Requirements,” and the checklist located in appendix A reiterate quarterly
cash verification regulations. The Acting Deputy Chief Financial Officer further stated that the
Office of the Under Secretary of Defense (Comptroller) and the Department of the Navy are
currently in discussions to eliminate appendix D from the DoD Financial Management
Regulation.

Audit Response. We consider the Acting Deputy’s comments to be partially responsive. Until
DoD Financial Management Regulation, volume 5, appendix D is removed, the requirements are
applicable. Additionally, volume 5, chapter 3, section 0302, “Cash Review Requirements,” and
the quarterly checklist found in volume 5, appendix A, do not relate to unannounced disbursing
examinations but to quarterly cash verifications. These are independent reviews that provide
necessary internal control oversight to properly safeguard cash and other monetary assets.
Therefore, we ask that the Under Secretary of Defense (Comptroller) provide the date when
volume 5, appendix D will be removed from the DoD Financial Management Regulation.




                                               14
Additionally, address whether the unannounced disbursing examinations will still be a
requirement and if so, under what guidance.

Defense Finance and Accounting Service Comments: Although not required to comment, the
Director, Defense Finance and Accounting Service Cleveland disagreed, stating that the lack of
adherence to the DoD Financial Management Regulation does not dictate that the Financial
Management Regulation be changed.




                                              15
16
Finding C. Currency Exchange Rate
The Naval Support Activity-Bahrain DO did not obtain the most beneficial exchange rate
for the currency exchange of U.S. dollars to Bahraini dinars (BHD). The DO did not
comply with the DoD policy requiring periodic solicitations from financial institutions to
obtain most beneficial exchange rate. As a result, in FY 2007 NSA-Bahrain paid more
than $93,000 in excess exchange costs to convert U.S. dollars to BHD.

NSA-Bahrain
NSA-Bahrain, located in the Middle East, supports the Commander, U.S. Fifth Fleet,
deployed assets, military and DoD civilian personnel assigned to Bahrain. NSA Bahrain
personnel provide services and support to ships at sea, remote sites throughout the region,
and military and civilian personnel living in Bahrain. The NSA-Bahrain disbursing
office uses a limited depository account to pay commercial bills incurred due to the cost
of base operations.

Limited Depository Accounts
NSA-Bahrain did not seek the most beneficial exchange rate. The DoD FMR, volume 5,
chapter 14, “Limited Depository Checking,” section 140307.B, dated June 2008, requires
that “(a)t least every 3 years, for each account, the DO shall determine if it may be cost
effective to solicit competitive proposals from all American owned and leading financial
institutions in the area to secure the most beneficial banking agreement.” Generally, the
DO should obtain at least three bids to determine the best rate available.

The DO currently uses an LDA maintained at a bank in Manama, Bahrain. The DO
funds this LDA by requesting U.S. currency from a military banking facility in Germany,
which transfers the funds to the bank in Bahrain. The bank then exchanges the U.S.
currency into BHD at a rate of .375 BHD to $1. From October 2006 through August
2007, the NSA-Bahrain disbursing office exchanged more than $35 million into BHD.

Soliciting Financial Institutions
The DO did not solicit financial institutions to obtain the most beneficial exchange rate.
The DoD FMR, volume 5, chapter 13, requires DOs to obtain foreign currency through
Military Banking Facilities or Government sources whenever possible. When Military
Banking Facilities or Government sources are not available, a DO is responsible to solicit
for the best available exchange rate. It is beneficial to have the greatest possible
exchange rate when converting from the U.S. dollar to the BHD.

NSA-Bahrain hosts an exchange service as a tenant activity, to provide exchange services
for personnel on base. The exchange service has offered a constant exchange rate of .376
BHD to $1 since last year.




                                            17
On December 8, 2004, NSA-Bahrain’s DO did not use the exchange service but instead
solicited with a local Bahrain bank. The constant bank rate of exchange, .375 BHD to $1,
was one-tenth of a percent (.001) lower than what the exchange service offered.

Table 2 compares the amount of unrealized savings between October 2006 and August
2007, based on total deposits of $35.1 million.

                         Table 2. Exchange Rate Differences
                       Deposits in                                  Savings     Savings in
                       U.S. Dollars  Conversion into BHD            in BHD        U.S.
       Month            (millions)      .375        .376             at .376     Dollars
October 2006                $7.5      2,812,500   2,820,000           7,500        $19,947
December 2006                1.2        450,000     451,200           1,200          3,191
January 2007                 5.5      2,062,500   2,068,000           5,500         14,628
February 2007                4.5      1,687,500   1,692,000           4,500         11,968
March 2007                   1.5        562,500     564,000           1,500          3,989
April 2007                   4.0      1,500,000   1,504,000           4,000         10,638
May 2007                     3.2      1,200,000   1,203,200           3,200          8,511
June 2007                    3.5      1,312,500   1,316,000           3,500          9,309
July 2007                    2.0        750,000     752,000           2,000          5,319
August 2007                  2.2        825,000     827,200           2,200          5,851
Totals:                   $35.1                                      35,100        $93,351

As a result, NSA-Bahrain and the Navy paid excess costs to convert U.S. dollars to BHD.
Had the DO used the exchange service to convert U.S. dollars into BHD over these 10
months, NSA-Bahrain would have received an additional $93,351. The DO needs to
perform periodic solicitations routinely, because the savings could be considerable. For
example, if NSA-Bahrain maintains its current level of operation, the estimated savings
calculated using the .376 rate over a 6-year period (2008 through 2013) would be
approximately $560,000.

Recommendation, Client Comments, and Our Response
C. We recommend that the Commander, Naval Support Activity-Bahrain, establish
procedures to ensure that the DO obtain the most beneficial exchange rate when
exchanging U.S. dollars for Bahraini dinars.

Client Comments. The Director, Office of Assistant Secretary of the Navy (Financial
Management and Comptroller) Financial Management Office, concurred in principle.
Naval Support Activity Bahrain agrees to establish procedures to ensure that the
disbursing officer obtains the most beneficial exchange rate when exchanging U.S.
dollars for Bahraini dinars, noting that the procedures must be consistent with the Status
of Force Agreement or memorandum of agreement with the Government of Bahrain.



                                            18
Naval Support Activity-Bahrain projected that these procedures will be complete August
31, 2008.

Audit Response. Although the Director, Financial Management concurred only in
principle, we consider these comments to be responsive to the intent of the
recommendation.




                                          19
20
Finding D. Duplication of Banking Services
Personnel Support Detachment-Naples unnecessarily provided check-cashing and Euro-
conversion services. Personnel Support Detachment-Naples did not effectively
implement DoD Financial Management Regulation provisions prohibiting the duplication
of banking services. As a result, Personnel Support Detachment-Naples inappropriately
used personnel to provide the same check-cashing and Euro-conversion services provided
by on-base commercial banks.

On-Base Commercial Banking Services
DoD FMR, volume 5, chapter 4, paragraph 040101A, authorizes DOs to provide
check-cashing services only when satisfactory banking facilities are not available.

DoD contracted with a commercial bank to operate on-base military banking facilities at
its overseas installations. The objective for establishing military banking facilities is to
provide convenient banking services for active military, DoD civilians, contractors, and
foreign nationals working for the DoD at overseas installations, with improved customer
service at reduced cost. Military banking facilities provide services such as checking
accounts, savings accounts, certified deposits, automated teller machines, check cards,
check-cashing services, and foreign currency exchange services. Commercial military
banking facilities provide banking services to the DoD at more than 80 locations
throughout the world. Such locations include, but are not limited to, England, Germany,
Italy, Japan, and Korea.

PSD-Naples Check-cashing and Conversion Services
A military banking facility and Personnel Support Detachment-Naples (PSD-Naples)
both reside at NSA-Capodichino, Italy. PSD-Naples offered check-cashing and Euro-
conversion services from its cash cage. The PSD-Naples disbursing office continued to
provide these services even when a commercial, on-base military banking facility
provided similar services. PSD-Naples employed two military members to provide these
services.

Duplication of Services
In April 2007, the commercial military banking facility began operating at PSD-Naples,
offering the full range of military banking services. In accordance with the provisions of
the DoD FMR, PSD-Naples should have promptly discontinued its check-cashing and
Euro-conversion services. However, when management attempted to terminate the
services, customers complained that they were not properly informed that these services
would be discontinued. As a result, management reestablished the services to allow
ample time to inform service personnel. As of July, 2007, PSD-Naples still maintained
the duplicate services, with no established date to discontinue them. By not
discontinuing the duplication of services in a timely manner, PSD-Naples ineffectively
used PSD personnel and incurred unnecessary personnel costs.




                                             21
PSD-Naples Resources
PSD-Naples did not effectively use its resources. In addition to check-cashing and
Euro-conversion services, PSD-Naples personnel also provided pay, administration, and
transportation support to authorized military, civilian and dependent personnel in the
European theater. As of July 2007, PSD-Naples had filled 19 of 27 authorized military
billets to perform its operation, leaving 8 vacant positions.

Two of the 19 personnel provided the check-cashing and Euro-exchange services.
PSD-Naples incurred $135,709 in annual personnel costs for these services. If
PSD-Naples continued to provide check-cashing and Euro-conversion services through
FY 2014, the DoN could incur personnel costs of over $814,254. PSD-Naples can help
DoN operate more efficiently by eliminating these unnecessary services and putting
personnel resources to better use. With only 19 of 27 authorized billets filled, the Navy
could easily reassign these military personnel to 2 of the 8 vacancies.

Management Actions
Command, PSD-Naples took action to communicate to the Naples Military community
that check-cashing and Euro-conversion services would no longer be available in its
disbursing office. Specifically, Command took the following actions.

              On September 12, 2007, PSD-Naples reduced customer service hours
               from 5 days a week to 3 days a week.

              On December 1, 2007, PSD-Naples stopped performing Euro-conversion
               services.

              In early 2008, PSD-Naples ceased all check-cashing services.

PSD-Naples advertised each of these actions via weekly information e-mails, the base
newspaper, and monthly command meetings. Such actions effectively communicated the
termination of these services to the Naples military community.

Military Banking Facilities at Overseas DoD locations
PSD-Naples command appropriately took corrective actions by developing and executing
a plan to terminate the check-cashing and Euro-conversion services its disbursing office
provided. PSD-Naples is only one of the many DoD locations colocated with military
banking facilities throughout the world. Given the potential for reduction of resources,
the DoD could realize significant savings if it eliminated duplicate services between
disbursing offices and military banking facilities at its overseas locations.

The following table shows the worldwide commercial military banking locations
identified in the DoD military banking facilities contract. The table also shows
disbursing offices that are colocated with the banking locations that potentially provide
duplication of services. With the identification and eventual elimination of duplicate
banking services, DoD can operate more efficiently and put its resources to better use.




                                            22
     Table 3. DoD OCONUS Military Banking Facilities and Colocated Services
  Service Branch      Disbursing Office Location        Full-Service Banking Facility Locations
U.S. Navy           Yokosuka Naval Base                 Yokosuka, Japan

U.S. Marine Corps   Camp Foster                         Okinawa, Japan

U.S. Air Force      Kunsan Air Base                     Kunsan City, South Korea
                    Osan Air Base                       Osan, South Korea
                    Kadena Air Base                     Kadena, Japan
                    Misawa Air Base                     Misawa City, Japan
                    Yokota Air Base                     Yokota, Japan
                    Spangdahlem Air Base                Spangdahlem, Germany
                    Ramstein Air Base                   Ramstein, Germany
                    Royal Air Force Lakenheath          Lakenheath, UK
                    Royal Air Force Mildenhall          Mildenhall, UK

U.S. Army           US Army Garrison - Hessen           Hanau, Germany
                    US Army Garrison - Baumholder       Baumholder, Germany
                    Campbell Barracks                   Heidelburg, Germany
                    US Army Garrison - Kaiserslautern   Kaiserslautern, Germany
                    Coleman Barracks                    Mannheim, Germany
                    Camp Ederle                         Vicenza, Italy
                    Camp Humphreys                      Pyongtaek, Korea
                    US Army Garrison - Yongsan          Seoul, Korea
                    US Army Garrison - Taegu            Taegu, Korea
                    Camp Casey                          Tongduchon, Korea

Recommendations, Client Comments, and Our Response
D.1. We recommend that the Under Secretary of Defense (Comptroller), in
conjunction with the Defense Finance and Accounting Service, perform an analysis
to determine whether duplication of services inappropriately exists between DoD
disbursing operations and military banking facilities overseas, with the intent to
eliminate duplicate services. Once the analysis is completed, the Under Secretary of
Defense (Comptroller) should provide the potential benefits from resources
redirected to better use.

Under Secretary of Defense (Comptroller) Comments. The Acting Deputy Chief
Financial Officer partially concurred, stating that installation commanders are responsible
for enforcing DoD Financial Management Regulation volume 5, chapter 4, paragraph
040101.A guidance prohibiting colocation of accommodation exchange services with
other financial or exchange facilities. The Acting Deputy Chief Financial Officer further
stated that the Military Services have consequently been directed by memorandum to
review the overseas locations where disbursing offices are colocated with military
banking facilities. The direction memorandum requires the Military Services to provide a



                                                 23
plan of action to eliminate the duplicate service or provide justification for continuance
no later than June 30, 2008.

Audit Response. Although the Acting Deputy Chief Financial Officer partially
concurred, we consider these comments to be responsive to the intent of the
recommendation. We request the Acting Deputy provide the results of the action plan
developed to eliminate the duplicate service.

Defense Finance and Accounting Service Comments. Although not required to
comment, the Director, Defense Finance and Accounting Service Cleveland disagreed,
stating that the DoD Financial Management Regulation volume 5, chapter 4, paragraph
040101.C specifically prohibits providing accommodation exchange services when
another banking or exchange facility provides the same service. The Director stated that
it is therefore unnecessary to conduct a study to determine whether the Services’ overseas
disbursing offices are providing check-cashing operations on military installations that
include a military banking facility.

D.2. We recommend that the Commander, Personnel Support Detachment-Naples,
complete the elimination of duplicate banking services at the earliest possible date.

Client Comments. The Director, Office of Assistant Secretary of the Navy (Financial
Management and Comptroller) Financial Management Office concurred, stating that the
Capodichino cash cage under Personal Support Detachment Naples, Italy was closed
February 15, 2008.

Audit Response. Comments from the Director, Office of Assistant Secretary of the
Navy (Financial Management and Comptroller) Financial Management Office are
responsive, and no additional comments are required.




                                             24
Appendix A. Scope and Methodology
We conducted this performance audit from February 2007 through February 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We obtained evidence through the following
tasks:
        • We reviewed DoD, U.S. Treasury, and Department of the Navy (DoN)
            guidance related to the internal controls over cash and other monetary assets
            (COMA).

       •   We coordinated with DoN and other agencies to obtain information regarding
           prior and ongoing audits or investigations relating to our audit, including:
               - Assistant Secretary of the Navy, Financial Management and
                   Comptroller,
               - Defense Criminal Investigative Service,
               - Naval Criminal Investigative Service,
               - Norfolk Field Examination Group,
               - Naval Audit Service, and
               - Defense Finance and Accounting Service Cleveland.

       •   We acquired necessary documentation and records from DFAS, including
           service-level points of contact. The points of contact completed internal
           control questionnaires and provided us with accountability reports.

       •   We obtained a universe of 46 total Disbursing Station Symbol Numbers
           (DSSN) throughout the DoN as of February 2007. Of the universe, 19 DSSNs
           represented ashore DoN disbursing offices located outside of the continental
           U.S. (OCONUS).

       •   We judgmentally selected a sample that included 8 of the 19 ashore OCONUS
           DSSNs, defining the parameters of our scope within the Pacific, Europe, and
           Central Commands, as follows:

               -   DSSN 5792:   Personnel Support Detachment-Rota, Spain,
               -   DSSN 5895:   Personnel Support Activity-Chinhae, South Korea,
               -   DSSN 6160:   3rd Force Services Support Group Disbursing-Okinawa,
                     Japan,
               -   DSSN 6879:   Personnel Support Activity, Far East-Yokosuka, Japan,
               -   DSSN 7339:   Navy Medical Research Unit 3-Cairo, Egypt,
               -   DSSN 7475:   Personnel Support Detachment-Sigonella, Italy,
               -   DSSN 7668:   Personnel Support Detachment-Naples, Italy, and



                                           25
               -   DSSN 8814: Personnel Support Detachment-Manama, Bahrain.

       •   We also planned a limited review of Naval Support Activity-Manama,
           Bahrain (DSSN 8069) because it is located at the same base as Personnel
           Support Detachment–Manama, Bahrain (DSSN 8814).

       •   We evaluated internal controls over COMA at each DSSN, as required by the
           DoD Federal Management Regulation. To determine whether controls were
           effective and adequate, we assessed management’s operating procedures and
           implementation of the DoD FMR in the following areas:
               - disbursing, deputy disbursing, and agents,
               - cash verifications,
               - cash security,
               - payments and collections,
               - statements of accountability,
               - foreign currencies, and
               - limited depository accounts.


Review of Internal Controls
We identified internal control weaknesses that we consider to be material. DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006, states that a material weakness is a reportable condition that the head of the DoD
Component determines to be significant enough to be reported to the next level of
management. Internal controls are the organization, policies, and procedures that help
program and financial managers achieve results and safeguard the integrity of their
programs. Internal and physical controls overall were not effective to ensure that COMA
was properly recorded, reported, and safeguarded (see Finding B). Implementing
Recommendations B.1.a., B.1.b., and B.1.c., will improve the internal control structure at
DoN disbursing offices. The finding section discusses the details of the internal control
weaknesses identified during the audit. A copy of the final report will be provided to the
senior official responsible for internal controls in the Office of the Assistant Secretary of
the Navy, Financial Management and Comptroller.

Use of Computer-Processed Data
To achieve the audit objective, we relied upon computer-processed data extracted directly
from the Defense Cash Accountability System (DCAS). DCAS is the single cash
accountability system used throughout DoD for cash accountability and reporting of
General Funds, Defense Working Capital Fund, and Security Assistance funds.
Specifically, we relied upon DCAS output that included DoN disbursing officers’
Standard Form 1219 (monthly Statement of Accountability) and Department of Defense
Form 2657 (Daily Statement of Accountability).

We did not perform a formal reliability assessment of the computer-processed data, such
as general or application controls evaluations. However, we did not find significant
errors between the computer-processed data and DoN disbursing source documents that


                                             26
would preclude use of the DCAS-processed data to meet the audit objective or that would
change the conclusions in this report.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) and the
Naval Audit Service have issued 5 reports discussing internal controls over COMA
within DoD components. Unrestricted DoD IG reports can be accessed at
www.dodig.mil/audit/reports. Unrestricted Naval Audit Service reports can be accessed
at www.hq.navy.mil/NavalAudit.

DoD IG
DoD IG Report No. D-2007-028, “Controls Over Army Cash and Other Monetary
Assets,” November 24, 2006

DoD IG Report No. D-2006-01, “Report on the Foreign Military Sales Trust Fund Cash
Management,” November 7, 2005

Naval Audit Service
Naval Audit Service Report No. N2007-0050, “Navy Disbursing Officers’
Accountability,” August 29, 2007

Naval Audit Service Report No. N2007-0046, “Internal Controls Over Disbursing Office
Operations in Bahrain,” July 23, 2007

Naval Audit Service Report No. N2006-0047, “Cash Accountability of Department of the
Navy Disbursing Offices for Hurricane Katrina Relief Fund,” September 22, 2006




                                          27
28
Appendix B. Potential Monetary Benefits
  Recommendation                                     Amount and/or type of
     Reference       Description of Benefits                 Benefit
        C.         Economy and Efficiency:     Funds put to better use:
                   Avoiding excessive          Approximately $560,000 of U.S.
                   payments for the exchange   Treasury funds.
                   of foreign currency.
       D.2.        Economy and Efficiency:     Funds put to better use:
                   Effective utilization of    Approximately $814,000 of
                   military personnel.         appropriated funds for military pay.




                              29
30
Under Secretary of Defense (Comptroller)/
Chief Financial Officer Comments




                                 31
32
Assistant Secretary of the Navy (Financial Management
and Comptroller) Comments




                                33
34
35
36
Defense Finance and Accounting Service
Comments




                               37
38
39
40
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Paul J. Granetto
Patricia A. Marsh
Edward A. Blair
Douglas P. Neville
Eric T. Thacker
Joseph A. Shook
Peter Su
Cheryl L. Dagy
E. Ellen Kleiman-Redden
Chin-feng Herrod
Raymond A. Sloss
